                                                   U.S. Department of Housing and Urban Development
                                                   Office of Inspector General, Region VI
                                                   819 Taylor Street, Suite 13A09
                                                   Fort Worth, TX 76102

                                                   (817) 978-9309 Fax (817) 978-9316
                                                    http://www.hudoig.gov
                                                   OIG Fraud Hotline 1-800-347-3735




April 10, 2012                                     MEMORANDUM NO.:
                                                   2012-FW-1803

MEMORANDUM FOR:               Donna Wickes, Director
                              Community Planning and Development, 6ID

                 //signed//
FROM:            Gerald R. Kirkland
                 Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT:         Corrective Action Verification
                 City of Tulsa – Community Development Block Grant
                 Land Use and Program Income
                 Audit Report 2008-FW-1012


                                          SUMMARY

The Director of the U. S. Department of Housing and Urban Development’s (HUD) Oklahoma
City Office of Community Planning and Development requested that we perform a corrective
action verification of recommendation 1B in audit report 2008-FW-1012, The City of Tulsa, OK,
Allowed Its Largest Subrecipient To Expend $1.5 Million in Unsupported CDBG Funding. 1 We
expanded the review to include recommendation 1C. The purpose of the review was to
determine whether HUD closed recommendations 1B and 1C in accordance with requirements
and actions taken to resolve the underlying findings.

Based upon the evidence reviewed, HUD closed the recommendations before the City of Tulsa
required the Tulsa Development Authority to implement specific plans to dispose of land
purchased with Community Development Block Grant (CDBG) funds and remit program income
earned on the land. The Authority still held land valued at more than $3.1 million without
specific plans for its use and retained at least $42,000 in program income. In addition, the
Authority did not provide supporting documentation to ensure that it correctly computed and
remitted program income to the City for two properties which it sold.

Instead of reopening recommendation 1B, we recommend that HUD require the City to repay
HUD the higher of the current cost or market value for the land the Authority still holds and
either support or repay more than $2 million for the two properties it sold without supporting
calculations of program income remitted. Due to the inability of the City to use these funds for
eligible CDBG activities, the City should return the funds to HUD. HUD should also require the
1
    Issued August 4, 2008
City to report monthly on its actions to return the funds and obtain prior HUD approval before
funding future land acquisitions with CDBG funds. Further, HUD should reopen
recommendation 1C concerning the remittance and use of program income.

We provided the City and HUD with our draft report on March 8, 2012. We held an exit
conference with the City and HUD on March 15, 2012. The City provided its written response
on March 28, 2012. The City generally agreed with the finding; however, it provided additional
information contradicting previously supplied information and information purportedly
supporting the allocation of the reimbursement for the ballpark. The City’s response and our
evaluation of the response are located in Appendix B. The City’s response included attachments
that are available upon request.

For each recommendation without a management decision, please respond and provide status
reports in accordance with HUD Handbook 2000.06, REV-4. Please furnish us copies of any
correspondence or directives issued because of the audit.

                                    SCOPE AND METHODOLOGY

We performed a corrective action verification review of recommendations 1B and 1C of audit
report 2008-FW-1012, issued August 4, 2008. We performed the review at our office in
Oklahoma City, OK, and the City and Authority’s offices in Tulsa, OK. We performed the
review from November 2011 to February 2012. Our review period included August 2008
through November 2011.

To accomplish our objective, we

    •   Reviewed audit report 2008-FW-1012 and supporting work papers;
    •   Reviewed HUD management decisions and the documentation used to close
        recommendations 1B and 1C;
    •   Reviewed relevant HUD rules and regulations;
    •   Reviewed the City’s actions to address the findings;
    •   Reviewed the Authority’s disposition plans;
    •   Compared the Authority’s land listing obtained during the audit to the land listing
        provided for this review; 2
    •   Interviewed HUD, City, and Authority staff; and
    •   Selected a sample of Authority land that was held for resale, sold, transferred, and
        categorized as non-CDBG but previously listed as CDBG.

From the 84 properties 3 that the Authority listed as having been sold, transferred, or categorized
as non-CDBG but previously listed as CDBG, we nonstatistically selected 7 properties, with a
book value of $483,170, to review. We selected two properties that were sold with the highest
book value; three properties with the highest book value that were transferred to the City due to


2
    The Authority provided conflicting information during the audit and this review.
3
    Book value of $5,763,050

                                                        2
their being in a flood plain, park, or remnant piece of property; and the two properties listed as
non-CDBG that were previously listed as CDBG.

From the 80 properties that the Authority listed as having been held for resale, 4 we
nonstatistically selected 9 properties, with a book value of $293,000. We selected one property
with the highest book value from the City’s Pearl District, two properties listed as land available
for sale (third and fourth highest book values), one property listed as RFP [request for proposal]
single family with the highest book value, one property listed as land currently under contract
with the highest book value, and the four properties that were on the Authority’s current list but
not on the list provided during the audit.

                                         BACKGROUND

Our August 4, 2008 report concluded that one of the City’s subrecipients, the Authority, did not
expend CDBG funds in accordance with requirements. Specifically, the Authority could not
support more than $1.39 million in salary expenditures, supplies, and other expenses and had
accumulated property since the 1960s without specific disposition plans. In addition, the City
underreported program income, did not perform environmental reviews, and did not monitor the
Authority. Since our audit, the City had not provided additional CDBG funding to the Authority
for property acquisition. Additionally, the CDBG subrecipient agreement between the City and
Authority expired in September 2007. Therefore, the City and Authority did not have an updated
agreement concerning the use of this CDBG funding.

In November 2011, HUD requested that we perform a review to determine whether the City
required the Authority to implement its disposition plans as recommended in our report. We
agreed to perform a corrective action verification of the following recommendations from the
report:

        1B. Require the Authority to develop and implement specific plans for its future CDBG
        acquisitions and currently owned CDBG properties that will benefit the low- to moderate-
        income community as a whole and individually, which would put $8,982,150 to better
        use.

        1C. Determine what properties the Authority purchased with CDBG funds and report
        program income earned from these properties as HUD requires and in accordance with
        the contract between the City and the Authority and ensure that the City expends the
        program income for eligible expenses.

HUD’s management decision for recommendation 1B was for the Authority to develop specific
plans for currently owned CDBG properties and future CDBG acquisitions and submit the plans
to HUD before implementation. We concurred with HUD’s management decision on
November 24, 2008. The City provided the Authority’s disposition plans on August 21, 2009.
HUD closed the recommendation on November 20, 2009.



4
    Book value of $3,122,900

                                                 3
HUD’s management decision for recommendation 1C was for the City to provide quarterly
reports of program income generated from properties purchased with CDBG funding for 12
months. We concurred with HUD’s management decision on November 24, 2008. The City
provided 12 months of program income data. HUD closed the recommendation on
November 10, 2009. Since the recommendation included all of the Authority’s property, the
program income recommendation should have remained open until the Authority disposed of all
its properties.

                                         RESULTS OF REVIEW

The City did not fully implement the recommendations requiring the Authority to develop and
implement specific plans to dispose of its CDBG properties and properly report program income.
Despite the City not fully implementing the recommendations, HUD closed the
recommendations in November 2009. 5 As a result, the Authority retains ownership of at least 80
CDBG-funded properties valued at more than $3.1 million, 6 with vague plans for final use.
Finally, the Authority did not remit at least $42,000 in program income after it sold a CDBG-
funded property.

The Authority did not develop and implement specific disposition plans that met CDBG national
objectives. The Authority’s CDBG disposition plan had an objective to reduce its land inventory
by 20 percent each year until it no longer held any CDBG properties (December 31, 2014). This
plan was provided to HUD and used to close the recommendation. However, on November 30,
2011, the Authority developed a new CDBG disposition plan without notifying the City. 7 In the
new plan, the Authority planned to reduce its land inventory by 30 percent by December 31,
2012. While the old plan HUD used to close the recommendation stated it would meet CDBG
national objectives by benefiting the low- to moderate-income community, the new plan did not.
The Authority did not indicate how it would meet the objectives. In addition, it is uncertain
whether the Authority will be able to dispose of the property in the timeframe stated in either
plan.

The 16 sample properties reviewed consisted of 7 properties that were sold, transferred, or
categorized as non-CDBG but previously listed as CDBG and 9 properties that were held for
resale.




5
    Five years before the planned disposition date on the Authority’s CDBG disposition plan
6
    Listing of the Authority’s land held for resale, dated November 30, 2011
7
    We requested these documents with a due date of December 1, 2011.

                                                        4
                       Table 1. Land sold or transferred or non-CDBG land
                Address            Date acquired      Date of disposition 8       End use
                                                                            Transferred to the
1    2518 N. Hartford Pl.         February 28, 1976 October 8, 2008
                                                                            City - park
                                                      Authority researching
2    802 E. Independence St.     September 13, 1976
                                                      file
                                                                            Minor league
3    507 E. Archer St.                 July 13, 1987 December 11, 2008
                                                                            ballpark
4    506 E. Archer St.                  June 1, 1990 Property not sold
                                                                            Transferred to the
5    1504 N. Greenwood Ave.       November 1, 1993 October 8, 2008
                                                                            City - remnant
6    Block 78                        March 29, 1993 Unknown
                                                                            Transferred to the
7    1115 E. 5 Pl.                 October 19, 1995 October 8, 2008
                                                                            City - flood

The Authority’s land that was sold, transferred, or listed as non-CDBG in the sample included
properties purchased from 1976 to 1995. In June 2008, the Authority selected 73 properties,
including three sample properties, designated as flood or remnant to transfer to the City. The
Authority transferred at least 31 properties to the City in October 2008. 9 It is unclear why the
Authority waited between 13 and 32 years to take action regarding these properties. Transferring
the land to the City relieved the Authority of its CDBG responsibilities, but the City must
support that these properties were used for CDBG-eligible activities or return the CDBG-funded
amount to HUD.

Of the seven sample items, the Authority transferred three properties to the City. The Authority
was researching another property to determine why it identified it as CDBG funded in 2007 and
not CDBG funded in 2011. Finally, the Authority listed another property as having been sold
when it had not been sold. For the remaining two sample items, the Authority sold a sample
property 10 for the construction of a minor league baseball park and changed the status of another
from CDBG to non-CDBG without explanation. The Authority provided the City with some
program income for both properties. However, it did not provide sufficient documentation to
support the amount of program income remitted.

    The Authority Could Not
    Support Its Program Income
    Calculation for Baseball Park
    Property

The Authority may have remitted to the City fewer funds than required when it sold properties
for the construction of a minor league baseball park. Instead of meeting a CDBG national
objective, the Authority used the property at 507 East Archer Street for this non-CDBG purpose.

8
      Considering the amount of time that passed before the Authority disposed of the property, it is questionable
      whether the Authority intended to meet national objectives at the time of purchase.
9
      The Authority’s documentation did not state the status of the other properties.
10
      As part of a group of properties

                                                           5
Therefore, it was required to remit the CDBG funds to the City. The Authority purchased this
property with CDBG funds in two segments: in July 1987 for $400 and in July 2002 for
$250,000. It sold the property with other CDBG- and non-CDBG-funded properties in
December 2008. The total contracted sales price was more than $2.7 million. The Authority
remitted $723,250 to the City as program income. It considered the more than $2 million
remaining on the contracted sales price a donation to the buyer. The Authority did not provide
documentation to show its determination of the value of each property to ensure that it remitted
the correct amount of program income to the City.

     The Authority Did Not Keep
     Accurate Records for the
     Property at Block 78


The City and the Authority provided contradictory information regarding a sample property.
Originally, the Authority’s records identified the sample property as being located at 125 South
Hartford. The Authority used this property to provide parking for City employees; a prohibitive
use of CDBG purchased land. 11 However, in its response to our draft memorandum, the City
asserted that the sample property was a vacant property identified as Block 78, one block from
125 South Hartford. However, the City did not refute other documentation regarding the
purchase of this property.

The City provided documents showing that the Authority purchased Block 78 and Block 83, a
property across a street from Block 78, for $170,000 in March 1993. According to the
documents, the City purchased the property from a bank using approximately $100,000 of
CDBG funds and $70,000 non-CDBG funds. It appears that the City intended for the CDBG
funds to purchase Block 78 and non-CDBG funds to purchase Block 83. None of the
documentation provided explained this allocation or how the purchase of this land met a CDBG
national objective. In August 2004, the Authority hired an appraiser to perform a retrospective
appraisal on Block 83 without site improvements. In October 2004, the appraiser valued the land
without site improvements at $183,000. According to the Authority, it remitted $107,604 in
program income back to the City in April 2006. However, the Authority did not explain why it
remitted funds to its CDBG program for a property it purchased with non-CDBG funds. In its
response, the City claims that it repaid its CDBG program $149,940 on July 31, 2008, for Block
78. However, it did not provide a general ledger excerpt or similar supporting the repayment.

The Authority misused this land since it purchased it in 1993, and the City did not provide sales
documentation to show the value or the reason for selling the property. The conflicting
information further illustrates the unreliability of the records. Therefore, the City needs to
provide complete documentation to ensure the Authority reimbursed the City’s CDBG fund in
accordance with rules and regulations.




11
      24 CFR 570.207(a)(1)

                                                6
                              Table 2. Land held for resale
             Address      Date acquired     Book value            Proposed plans 12
1 1252 N. Hartford Ave. October 3, 1975               $0 Transfer to the City, proposed
                                                           detention pond
2 901 E. King Pl.       August 22, 1977        $111,500 In negotiations with private
                                                           business to purchase property
3 400 E. Latimer Ct.    May 22, 1979                  $0 Transfer to the City, existing
                                                           alley easement
4 119 W. Archer St.     December 1, 1983        $61,000 Land lease with private
                                                           business for pocket park
5 531 N. Cheyenne Ave. January 12, 1990           $1,900 Market single-family
                                                           residential in 2012
6 551 N. Cheyenne Ave. October 1, 1990          $46,000 Market single-family
                                                           residential in 2012
                                                           Transfer to the City to apply
7 150 N. Lansing Ave.   January 14, 1994        $94,100 for Environmental Protection
                                                           Agency cleanup grant
                                                           Transfer to the City, Pearl
8 616 S. Quaker Ave.    July 12, 1994             $6,000
                                                           District detention pond
9 1130 N. Boston Ave.   August 25, 2005         $14,800 Market residential properties
                                                           in 2012

As shown in table 2, the Authority’s land held for resale sample included properties purchased
from 1975 to 2005. Its plans included transferring, leasing, or selling its properties. The
Authority did not specify how its proposed end use met a CDBG national objective. Since it had
held these properties from 6 to 36 years, it appeared that the Authority engaged in land banking,
an unallowed CDBG activity, 13 rather than using these funds to meet a CDBG national objective.
Nevertheless, the City was responsible for ensuring that its CDBG funds provided to the
Authority were used in accordance with rules and regulations. Because the City had not used
these CDBG funds for eligible activities for 6 to 36 years, HUD should require the City to repay
to HUD the higher of the cost or market value of these properties. 14

 The Authority Had $42,000 in
 Program Income in a Suspense
 Account

The Authority did not report $42,000 in program income earned from the disposal of a CDBG-
funded property as required by HUD rules and regulations. Generally, the Authority would remit
program income to the City under its subrecipient agreement. However, the agreement between

12
     The Authority submitted the proposed plans for its CDBG properties on December 12, 2011. The plans did not
     indicate how the Authority would meet CDBG national objectives.
13
     Federal Register Vol. 73, No. 194
14
     The reasoning for the higher of cost or market value is to prohibit the Authority or the City from benefiting
     from its actions.

                                                         7
the City and the Authority expired on September 30, 2007. This contract required the Authority
to return all program income and land acquired with CDBG funding at the end of the contract.
In addition, the City allowed the Authority to deposit program income into a suspense account
until the City and Authority finalized an updated subrecipient agreement. As a result, the
Authority did not remit the $42,000 in program income to the City. The City should obtain the
$42,000 from the Authority and use it for eligible CDBG activities.

                                               CONCLUSION

The City did not fully implement the recommendations by requiring its subrecipient to develop
and implement specific disposition plans and remit program income. Despite this deficiency,
HUD closed the recommendations in November 2009. As a result, the Authority still holds more
than $3.1 million in CDBG-funded land without specific plans that meet CDBG national
objectives. The Authority transferred some properties to the City, which the City must use for
CDBG-eligible activities or return funds to HUD that it used to acquire these properties. In
addition, the Authority may have not provided the appropriate amount of program income to the
City for the minor league baseball park and the Hartford Avenue parking lot. Finally, the
Authority had not remitted at least $42,000 in program income earned from the disposal of a
CDBG-funded parcel.

Overall, the City did not require the Authority to follow HUD rules and regulations when
acquiring and disposing of CDBG-funded land. The Authority, as a subrecipient of the City, had
accumulated property since at least 1975 without specific plans to benefit the low- to moderate-
income community. Even after the 2008 audit report, the Authority had vague plans for its
CDBG-funded land. In addition, the Authority provided conflicting information for its land
acquisition and inventory raising questions regarding the accuracy of its records. For these
reasons, HUD should require the City to return these misused funds. Further, HUD should not
allow the City to use CDBG funds to acquire additional properties without HUD’s prior
approval.

                                         RECOMMENDATIONS

We recommend that the Director of HUD’s Oklahoma City Office of Community Planning and
Development

         1A. Reopen recommendation 1C of audit report 2008-FW-1012, which required the
             City to determine what properties the Authority purchased with CDBG funds, and
             correctly report and use program income earned from these properties.

Instead of reopening recommendation 1B of audit report 2008-FW-1012, we recommend that the
Director of HUD’s Oklahoma City Office of Community Planning and Development require the
City to

         1B. Repay HUD the higher of the cost or market value of the properties purchased with
             CDBG funds that the Authority still owns (book value is $3,122,900). 15

15
     The $3,122,900 was included in the schedule of questioned costs in audit report 2008-FW-1012.

                                                        8
1C. Support that it used properties previously transferred by the Authority for an
    eligible CDBG purpose or repay HUD the higher of the cost or market value of the
    properties.

1D. Report monthly on its efforts to recover the misused CDBG funds until resolution
    of recommendations 1A and 1B.

1E. Support or repay $2,048,750 for the CDBG-purchased land sold or donated for the
    minor league baseball park.

1F. Support or repay the higher of the cost or market value of the property identified as
    Block 78 (property north of Hartford building).

1G. Obtain HUD approval before the City uses CDBG funding for land acquisitions.

1H. Obtain $42,000 in program income being held by the Authority and use the funds
    for eligible CDBG activities or repay the $42,000 to HUD. The City provided
    evidence supporting the repayment of the program income. We will close this
    recommendation upon issuance.




                                        9
Appendix A

                     SCHEDULE OF QUESTIONED COSTS
                    AND FUNDS TO BE PUT TO BETTER USE

                        Recommendation             Unsupported 1/        Funds to be put to
                               number                                         better use 2/
                                          1E             $2,048,750
                                          1H                                         $42,000

                                      Totals             $2,048,750                  $42,000




1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or activity when we
     cannot determine eligibility at the time of the audit. Unsupported costs require a decision by HUD program
     officials. This decision, in addition to obtaining supporting documentation, might involve a legal interpretation
     or clarification of departmental policies and procedures.
2/   Recommendations that funds be put to better use are estimates of amounts that could be used more efficiently if
     an Office of Inspector General (OIG) recommendation is implemented. These amounts include reductions in
     outlays, deobligation of funds, withdrawal of interest, costs not incurred by implementing recommended
     improvements, avoidance of unnecessary expenditures noted in preaward reviews, and any other savings that
     are specifically identified. In this instance, implementation of recommendation 1H will result in use of the
     $42,000 for an eligible CDBG purpose.




                                                          10
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         11
12
Comment 3




Comment 4




            13
14
                         OIG Evaluation of Auditee Comments

Comment 1   The City did not provide evidence to support its assertion that the properties
            purchased by the Authority met the slum and blight national objective. Further,
            not all of the properties purchased with CDBG funds were “right of way or flood
            plain.” The City’s response did not address the recommendations.

Comment 2   While the City provided additional documentation, it did not provide supporting
            documentation for the funding source of each property included in the ballpark
            property; including both CDBG and non-CDBG funded properties. Because of
            the contradictory information provided by the City, it will need to provide
            complete information regarding the purchases including funding source for non-
            CDBG purchased properties.

            As an example of unreliable documentation, the City provided two acquisition
            files that had the same address, but had different prices, lot sizes, parcel numbers,
            and acquisition dates. The City stated both lots were CDBG funded in its
            spreadsheet. However, one of the acquisition files did not list the property as
            CDBG funded. If the Authority failed to identify this property as CDBG on its
            acquisition file, it might have failed to properly identify other properties. Based
            on the previous audit and this review, the City has not provided reliable
            documentation to ensure it properly accounted for properties purchased with
            CDBG funds.

Comment 3   Based on the documentation provided, we modified the report and
            recommendation. The City provided evidence that the sample property was
            located on a different block than previously reported. However, the City did not
            provide the new address of the property, the sales document of the property, or the
            purpose in selling the land. Supporting its assertion that it repaid its CDBG fund
            $149,940 on July 31, 2008, the City provided a spreadsheet titled “CDBG Land
            Sales” with an entry description of “Record Land Disposition #642.” Further, the
            City did not reconcile the contradictory information provided or why the
            Authority obtained a retrospective appraisal and remitted program income on a
            property that the City claims was purchased using non-CDBG funds.

            This property has been identified as 125 South Hartford since at least 2007. The
            updated information showed the Authority has not kept accurate records
            concerning its land acquisition and inventory. The City will need to provide
            complete supporting documentation to show the Authority appropriately valued
            the land at current market value and reimbursed the City’s CDBG fund
            accordingly.

Comment 4   We commend the City for taking corrective action by collecting the $42,000 of
            program income that was held in a suspense account. We will close the
            recommendation upon report issuance.



                                             15
